Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   DUPLICATE MEDICAID AND 

   MEDICARE HOME HEALTH 

         PAYMENTS:

      MEDICAL SUPPLIES AND 

      THERAPEUTIC SERVICES





                    Daniel R. Levinson

                     Inspector General 


                       May 2008

                     OEI-07-06-00640

                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                                       S U M M A R Y


                  OBJECTIVE
                  1.	 To determine, in five States, the extent to which both Medicaid and
                      Medicare paid home health providers for the same medical supplies
                      and therapeutic services.

                  2. 	 To identify the controls that these five States have established that
                       are intended to prevent duplicate payments.


                  BACKGROUND
                  Home health services seek to restore health and minimize the effects of
                  illness and disability, thereby enabling beneficiaries to reside in
                  community settings and avoid institutionalization. These services
                  include nursing care, speech therapy, and physical therapy. Both
                  Medicaid and Medicare pay home health providers for services specified
                  in the plans of care for beneficiaries; however, both should not pay for
                  the same medical supplies or services for the same beneficiary.

                  Medicaid is the payor of last resort; therefore, Medicaid should pay for
                  home health services only if Medicare or another payor does not pay for
                  them. Medicare pays home health providers through the Prospective
                  Payment System (PPS) for qualified home health services provided
                  during episodes of care.

                  We examined Medicaid and Medicare home health claims in five
                  States: Florida, Maryland, North Carolina, Ohio, and Texas. During
                  the period of our review, these Medicaid programs paid a total of
                  $184 million for 2.2 million claims for home health supplies and services
                  coverable by Medicare. We matched Medicaid home health claims
                  against Medicare home health PPS claims using Social Security
                  numbers and dates of service and identified duplicatively paid home
                  health claims; we did not rely on the dual eligibility indicator field,
                  which may have been incorrect. For the purposes of this study, we
                  defined a duplicate payment as any Medicaid payment for a
                  PPS-covered service or supply on a date falling within a Medicare
                  episode of care. We did not attempt to determine medical necessity or
                  appropriateness.


                  FINDINGS
                  In four of the five States reviewed, Medicaid inappropriately paid
                  $1 million in 2005 for nonroutine medical supplies and therapeutic


OEI-07-06-00640   D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                   i
E X E C U T I V E                         S U           M M A R Y


                   services that were paid by Medicare. Of the 84,061 inappropriately
                   paid claims, 98 percent were for nonroutine medical supplies and
                   2 percent were for therapeutic services. All inappropriately paid claims
                   were for supplies and services included on the publicly available list of
                   Medicare-covered PPS services for 2005.

                   Medicaid paid $6.6 million for routine supplies on the same dates as
                   home health services; Medicare coverage of routine supplies cannot
                   be determined from claims data. Because Medicare PPS covers the cost
                   of routine medical supplies that are customarily used in small
                   quantities during the course of a therapeutic or assistive home health
                   service, it is possible that these medical supplies were included in the
                   Medicare payment and Medicaid should not have paid for them.
                   However, claims data do not indicate whether a routine supply was
                   provided during the course of another service. Therefore, the State
                   Medicaid agency cannot determine whether Medicaid or Medicare
                   should pay for these routine supplies leading to a potential
                   vulnerability.

                   All States reported having controls to prevent duplicate payments, but
                   these did not eliminate all inappropriate payments. All five States
                   relied on Medicare eligibility indicators and payment system edits to
                   compare claims for home health services to Medicare eligibility
                   information; however, incomplete eligibility information and payment
                   system edit overrides may still allow inappropriate payments.

                   Despite Medicaid being the payor of last resort, State officials
                   reported that they lacked direct access to Medicare claims data to
                   determine whether Medicare had already paid. Most inappropriately
                   paid claims were likely paid after Medicare made the initial payments
                   for the episodes, and Medicaid paid 10 percent of inappropriate claims
                   after the final Medicare payments. The order of claims submission
                   dates and payment dates indicates that some home health providers are
                   submitting Medicaid claims for medical supplies and therapeutic
                   services when they have already received Medicare payments. States
                   requiring Medicare denial notices had fewer inappropriately paid
                   claims.


                   RECOMMENDATIONS
                   Our results show that Medicaid inappropriately paid for some home
                   health supplies and therapeutic services for which Medicare also paid.



 OEI-07-06-00640   D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                    ii
E X E C U T I V E                         S U           M M A R Y


                   Therefore, we recommend that CMS:
                   Ensure that Medicaid does not pay providers for Medicare-paid
                   nonroutine medical supplies and therapeutic services. CMS could
                   accomplish this by: working with States and the Regional Home Health
                   Intermediaries to determine the costs and benefits of requiring
                   providers to request from Medicare denial of payment notices that
                   would then be submitted to the Medicaid program, addressing the cause
                   of the inadequate Medicare eligibility data, determining the utility of
                   allowing providers to override Medicaid payment denials for home
                   health services, requesting States to reeducate providers on the
                   requirement that Medicaid be the payor of last resort, and making
                   current Medicare home health payment information available directly
                   to States.
                   Clarify CMS policy on Medicare PPS coverage of routine medical
                   supplies. CMS should clarify what constitutes Medicare-covered routine
                   medical supplies used in the course of a therapeutic or assistive service
                   and provide greater specificity on when routine medical supplies are paid
                   for under Medicare PPS. Specifically, definitions of “required in quantity”
                   and “recurring need” with respect to whether routine supplies should be
                   considered nonroutine are needed.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its written comments on the report, CMS stated that it “did not
                   disagree” with our first recommendation and recognized the importance
                   of preventing duplicate Medicaid and Medicare billings. CMS offered
                   what it believes is a simplification of one of our suggestions to address
                   the first recommendation, which involves Medicare sending a copy of
                   the denial of payment notice to the State Medicaid program. CMS
                   concurred with our second recommendation to clarify policy on coverage
                   of routine medical supplies under Medicare’s home health PPS.

                   CMS commented on the methodology of this review, stating that the
                   absence of medical record review limits the findings. However, our
                   claims analysis was sufficient to definitively identify $1 million in
                   inappropriate Medicaid payments, as well as to identify vulnerabilities
                   that CMS should address to prevent duplicate payments. CMS also
                   stated that our second finding is an assumption rather than fact. Our
                   second finding is factual. We make no assumption about whether these
                   payments were inappropriate.

 OEI-07-06-00640   D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                    iii
Δ      T A B L E                         O F                     C O N T E N T S


                  EXECUTIVE SUMMARY .....................................i




                  INTRODUCTION ........................................... 1




                  FINDINGS ................................................. 8

                              States inappropriately paid $1 million. . . . . . . . . . . . . . . . . . . . . . . 8 


                              Medicaid paid $6.6 million for routine supplies on the same 

                              dates as home health services . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 


                              Controls did not eliminate all inappropriate payments. . . . . . . . . 11 


                              State officials reported that they lacked direct access to 

                              Medicare claims data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 




                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 

                              Agency Comments and Office of Inspector General Response . . . 15 




                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                              Appendix A: Medicare Coverage of Nonroutine and Routine
                              Medical Supplies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 


                              Appendix B: Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . 18 





                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 





OEI-07-06-00640         D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                         iv
Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  1. 	 To determine, in five States, the extent to which both Medicaid and
                       Medicare paid home health providers for the same medical supplies
                       and therapeutic services.

                  2. 	 To identify the controls that these five States have established that
                       are intended to prevent duplicate payments.


                  BACKGROUND
                  Home Health Services
                  Home health services are intended to restore health and minimize the
                  effects of illness and disability, thereby enabling beneficiaries to reside
                  in community settings and avoid institutionalization. These services
                  include:

                  •	      nonroutine and routine medical supplies;1
                  •	      therapeutic services—speech, occupational, and physical therapy
                          and medical social services; and

                  •	      assistive services—home health aide and skilled nursing services.

                  Both Medicaid and Medicare pay home health providers for home
                  health services specified in the plans of care for beneficiaries;
                  however, both should not pay for the same medical supplies or
                  services for the same beneficiary.2 Each program has specific
                  payment structures and limitations on the services covered. This
                  study examined Medicaid and Medicare payments for medical
                  supplies and therapeutic services. A companion study will examine
                  Medicaid and Medicare payments for assistive services.




                       1 The Centers for Medicare & Medicaid Services (CMS). “Medicare Home Health Agency
                       Manual” defines medical supplies as items that, because of their therapeutic or
                       diagnostic characteristics, are essential in enabling home health agency personnel to
                       conduct home visits or to effectively carry out the services on the plan of care. “Medicare
                       Home Health Agency Manual,” Pub. 11, section 206.4.
                       2 Both Medicare and Medicaid cover only home health services ordered on a written plan
                       of care for a specific beneficiary that a physician reviews every 60 days. CMS, “Medicare
                       Home Health Agency Manual,” Pub. 11, section 204.2(F). A plan of care is the medical
                       treatment plan that contains all diagnoses, types of services, supplies, and equipment
                       required; the frequency of visits to be made; and all medication and treatments.



OEI-07-06-00640   D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                   1
I N T R O D        U C T              I O N


                    Coverage and Payment of Home Health Services
                    States must offer home health services to Medicaid beneficiaries who
                    meet the States’ criteria for nursing home coverage.3 Under the home
                    health benefit, States must provide medical supplies and assistive
                    services.4 States may provide therapeutic services at their option.5 All
                    five States included in this study provided therapeutic services during
                    the period of our review.

                    For medical supplies and services Medicaid covers, Medicaid “. . . will
                    take all reasonable measures to ascertain the legal liability for third
                    parties . . . to pay for care and services available under the plan. . . .”6
                    Medicare qualifies as a third-party payor as defined above, and
                    Medicaid should always be the payor of last resort.

                    For the five States included in our review, Tables 1 and 2 (next page)
                    present total Medicaid claims and expenditures for home health
                    supplies and services coverable by both Medicaid and Medicare in
                    2005.7 Medicaid paid a total of $184 million for 2.2 million claims for
                    these supplies and services ($37.2 million for nonroutine medical
                    supplies, $75.6 million for therapeutic services, and $71.8 million for
                    routine supplies). Excluded from these totals are supplies and services
                    that Medicaid home health programs covered but that the Medicare
                    Prospective Payment System (PPS) did not cover. The 2.2 million
                    claims were for all beneficiaries regardless of dual eligibility.8
                    To be covered as part of the Medicare home health benefit, services
                    must be reasonable, medically necessary, and specified on a plan of
                    care.9 Other than these requirements, Medicare does not limit the
                    amount of nonroutine medical supplies or therapeutic services that a


                        3 Social Security Act (the Act) § 1902(a)(10)(D). 

                        4 42 CFR § 441.15. 

                        5 Section 1905(a)(7) of the Act, 42 CFR §§ 440.70 and 441.15. 

                        6 Section 1902(a)(25)(A) of the Act. 

                        7 We define coverable supplies and services as those that Medicare could pay if the

                        beneficiary was dually eligible; however, as noted in the Methodology section, our 

                        population was not restricted to beneficiaries identified as dually eligible on Medicaid

                        claims and included all supplies and services paid by Medicaid regardless of whether the 

                        beneficiary was identified as dually eligible. 

                        8 Maryland enrolls all home health beneficiaries in managed care programs, except for 

                        dually eligible beneficiaries. Thus, Maryland’s fee-for-service expenditures represent 

                        only expenditures for dually eligible beneficiaries. 

                        9 CMS. “Medicare Home Health Agency Manual,” Pub. 11, sections 203.1(A) and 

                        203.1(B). 




 OEI-07-06-00640    D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                     2
I N T R O D        U C T              I O N


                    beneficiary can receive through the home health benefit. Nonroutine
                    medical supplies include items such as catheters, dressings, syringes,
                    and needles.

                    Table 1: Medicaid Claims and Expenditures for Home Health Nonroutine
                    Medical Supplies and Therapeutic Services Coverable by Both Medicaid
                    and Medicare for All Medicaid Beneficiaries in 2005
                                                                                                                                    Therapeutic       Therapeutic
                                                       Nonroutine Medical Nonroutine Medical
                    State                                                                                                              Services          Services
                                                        Supplies (Dollars) Supplies (Claims)
                                                                                                                                       (Dollars)         (Claims)

                    Florida                                        $10,902,160                               103,382                 $3,436,109            51,397

                    Maryland                                                $5,333                                  136                   $53,304              1,239

                    North Carolina                                   $3,170,079                                90,659                $7,750,288            77,631

                    Ohio                                             $9,765,963                                90,241               $12,847,646           184,593

                    Texas                                          $13,351,263                               547,933                $51,554,385           403,037

                        Total                                      $37,194,798                               832,351                $75,641,733           717,897
                    Source: Office of Inspector General analysis of State Medicaid claims data, 2007.


                    Medicare also covers routine medical supplies used in small quantities,
                    such as cotton balls, gloves, and incontinence items, when they are
                    provided during the course of a therapeutic or assistive home health
                    service. For the five States included in our review, Table 2 presents
                    total Medicaid claims and expenditures for home health routine medical
                    supplies. See Appendix A for further details on Medicare coverage rules
                    for medical supplies.


                             Table 2: Medicaid Claims and Expenditures for Home Health
                             Routine Medical Supplies Coverable by Both Medicaid and
                             Medicare for All Medicaid Beneficiaries in 2005

                                                                              Routine Medical Supplies Routine Medical Supplies
                             State
                                                                                              (Dollars)                (Claims)

                             Florida                                                                          $2,173                                     37

                             Maryland                                                                                $0                                  $0

                             North Carolina                                                          $11,053,572                                      91,890

                             Ohio                                                                             $1,068                                      7

                             Texas                                                                   $60,782,007                                     551,527

                                Total                                                                $71,838,820                                     643,461
                             Source: Office of Inspector General analysis of State Medicaid claims data, 2007.

 OEI-07-06-00640    D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                                3
I N T R O D        U C T              I O N


                    The Centers for Medicare & Medicaid Services (CMS) maintains a list of
                    the services that Medicare covers and codes to be used in billing for
                    them. This list is publicly available on the CMS Web site and is
                    updated annually. Medicare contractors are notified of these updates
                    through program memorandums.10
                    Effective October 1, 2000, Medicare began paying for home health
                    services through a PPS. Under the Medicare home health PPS, home
                    health providers are paid for all home health services provided to
                    eligible beneficiaries during each 60-day episode of care, provided that
                    the services meet coverage criteria. The Medicare payment for each
                    episode of care may be split into two portions; home health providers
                    typically receive approximately half the payment at the beginning of
                    each episode and the balance at the end of the episode.
                    Dually Eligible Beneficiaries and Home Health Payments
                    As of January 1, 2006, CMS data indicated that approximately
                    6.1 million individuals were dually eligible for both Medicaid and
                    Medicare.11 Dual eligibility occurs when an individual meets both
                    Medicaid and Medicare eligibility requirements. When both Medicare
                    and Medicaid cover a particular supply or service, Medicare should pay
                    first for services provided to dually eligible beneficiaries. Medicaid is
                    the payor of last resort and therefore pays only for services that are
                    covered by Medicaid but not covered by Medicare.
                    Previous Studies and Related Work
                    A 2005 Office of Inspector General (OIG) study entitled “Review of
                    Medicaid Home Health Payments Rendered During a Medicare Covered
                    Stay for Dual-Eligible Beneficiaries—State of Connecticut”
                    (A-01-04-00011), identified $1.8 million in Medicaid payments for
                    Medicare-paid services from 2001 to 2003.

                    CMS is conducting two projects to identify duplicate Medicaid and
                    Medicare payments. CMS began the Medi-Medi project in 2001 to
                    reduce fraud, waste, and abuse by matching Medicaid and Medicare
                    data to identify improper billing and utilization patterns. Medi-Medi is


                        10 “Home Health Consolidated Billing Master Code List.” Available online at 

                        http://www.cms.hhs.gov/HomeHealthPPS/03_coding&billing.asp. Accessed 

                        November 6, 2007. 

                        11 “Overview of the Many Steps That CMS Has Taken To Make Sure All Dual Eligibles
                        Have Medicare Prescription Drug Coverage, January 1, 2006.” Retrieved online at
                        http://cms.hhs.gov. Accessed on August 16, 2006; no longer available online.



 OEI-07-06-00640    D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                     4
I N T R O D        U C T              I O N


                    currently reviewing claims in 10 States: California, Florida, Illinois,
                    New Jersey, New York, North Carolina, Ohio, Pennsylvania, Texas, and
                    Washington. When we conducted our analysis, Medi-Medi had not yet
                    reviewed any home health claims in the States included in this study.12
                    A pilot program streamlining States’ third-party liability efforts is
                    underway in Connecticut, Massachusetts, and New York. In this
                    program, the Regional Home Health Intermediary reviews samples of
                    Medicaid claims to determine whether Medicare should have paid them.
                    If Medicare is identified as the appropriate payor, States receive
                    refunds of their Medicaid payments from CMS.


                    METHODOLOGY
                    State Selection
                    We examined Medicaid and Medicare claims for beneficiaries in
                    five States: Florida, Maryland, North Carolina, Ohio, and Texas. We
                    selected States that represented fee-for-service Medicaid expenditures
                    for home health services in 2004 ranging from $58,000 to $126 million.
                    To avoid overlapping with the efforts of the Regional Home Health
                    Intermediary, we avoided selecting States that were participating in
                    that pilot program.
                    State Medicaid Agencies
                    We conducted structured interviews with Medicaid agency staff in each
                    of the five selected States. During these interviews, we collected
                    information and requested documentation regarding the home health
                    services that each State provided through its Medicaid program. We
                    also collected information on the postpayment audits that each State
                    conducted and the controls that each State had in place intended to
                    prevent Medicaid payments for home health services that Medicare
                    paid.
                    Claims Data and Analysis
                    Medicaid Data. We collected all final-action Medicaid Management
                    Information System claims data for home health services in the
                    five selected States for 2005. From these data, we extracted beneficiary
                    identifiers, service dates, procedure codes, and payment amounts for all
                    claims. A lack of complete Medicare eligibility indicators in the



                        12 Florida, North Carolina, Ohio, and Texas were included in our study and are
                        participating in Medi-Medi.



 OEI-07-06-00640    D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                     5
I N T R O D        U C T              I O N


                    Medicaid claims data prevented us from calculating expenditures for
                    only the dually eligible population.
                    Medicare Data. We used the National Claims History file to identify paid
                    Medicare claims data representing episodes of care provided to
                    beneficiaries in the five selected States for 2005. From these data, we
                    extracted Health Insurance Claims Numbers (HICN) and service dates for
                    all paid episodes and matched the HICNs from the claims against the
                    Enrollment Database13 to obtain each beneficiary’s Social Security
                    number.
                    Medicaid-Medicare Data Match. We matched claims for all beneficiaries
                    who had home health claims, rather than limiting our data collection to
                    beneficiaries with dual eligibility indicators, to ensure that we captured
                    all beneficiaries receiving services that both programs paid for
                    regardless of whether the indicator was present. Because Medicare
                    covers routine medical supplies provided during the course of a
                    therapeutic or assistive service, we determined how many of the routine
                    supply claims fell on dates on which the beneficiaries also received
                    therapeutic or assistive services.14
                    In each of the five selected States, we did the following:

                    (1) We merged the Medicaid home health claims with the Medicare
                        home health claims using Social Security numbers. The Medicaid
                        claims had either specific service dates or date ranges, while the
                        Medicare claims always had date ranges. The Medicaid dates and
                        date ranges were matched against the Medicare date ranges for each
                        beneficiary to identify potential duplicate claims. We then excluded
                        any claims for services not covered under the PPS, because Medicaid
                        payments for such services would not be duplicative.

                    (2) We identified paid claims for Medicaid medical supplies and services
                        that occurred within Medicare episodes of care, analyzed payment
                        trends for types of services and dates of payments, and calculated




                        13 The CMS Enrollment Database contains current and historical Medicare enrollment 

                        and entitlement information for all beneficiaries ever enrolled.

                        14 For this review, our only examination of assistive services was related to dates of

                        service so that we could determine whether routine supply claims fell on the same dates 

                        as assistive services and therefore were likely covered by Medicare. 




 OEI-07-06-00640    D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                     6
I N T R O D        U C T              I O N


                            duplicate payment amounts.15 We also reviewed the dates of claims
                            submission, receipt, and payment from each provider to determine
                            temporal relationships between Medicaid and Medicare claims.

                    (3) We conducted conference calls with the selected States to inquire
                        about the reasons for duplicate payments. We also spoke with CMS
                        officials to verify policy.
                    Limitations
                    This study was limited to fee-for-service Medicaid and Medicare PPS
                    payments for the same home health medical supplies and therapeutic
                    services. We did not attempt to determine the medical necessity or
                    appropriateness of any of the services provided, nor did we review the
                    beneficiaries’ plans of care.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




                        15 For the purposes of this study, we define a duplicate payment as any Medicaid
                        payment for a PPS-covered therapeutic service or nonroutine medical supply on a date
                        falling within a Medicare episode of care.



 OEI-07-06-00640    D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                     7
Δ      F I N D I N G S

     In four of the five States reviewed, Medicaid           Four of the five States included in
   inappropriately paid a combined $1 million in             our review made $1 million in
                                                             Medicaid payments for
       2005 for nonroutine medical supplies and
                                                             84,061 claims in 2005 for
therapeutic services that were paid by Medicare
                                                             nonroutine medical supplies
                     and/or therapeutic services that were paid by Medicare. Maryland had
                     no inappropriately paid claims. These payments represent nearly
                     1 percent of the $113 million that these States spent on reviewed home
                     health nonroutine medical supplies and therapeutic services, and
                     6 percent of the 1.5 million total claims.16
                     All inappropriately paid claims were for supplies and services included
                     on the publicly available list of Medicare-covered PPS services for 2005.
                     Of these inappropriately paid claims, 98 percent were for nonroutine
                     medical supplies, and 2 percent were for therapeutic services. Texas
                     represented 58 percent of the total expenditures for home health
                     nonroutine medical supplies and therapeutic services that we reviewed,
                     but 89 percent of the total dollars inappropriately paid.
                     States inappropriately paid $802,039 for 82,081 claims for nonroutine
                     medical supplies
                     Texas accounted for 96 percent of the inappropriate expenditures for
                     nonroutine medical supplies, followed by North Carolina and Florida
                     (see Table 3 on the following page). Of Texas’s nonroutine claims,
                     92 percent were billed with procedure code A4335 (nonroutine
                     incontinence supplies).

                     Texas officials stated that a claims-level review would be the only way
                     to determine why it had a disproportionate number of inappropriately
                     paid medical supply claims when compared to those of the other four
                     States. Texas did, however, lack indicators of dual eligibility for more
                     than 99 percent of its inappropriately paid claims. Texas officials stated
                     that Medicare or other third-party liability information may have been
                     added to the eligibility file after the claims were paid.




                         16 These percentages should not be interpreted as error rates. As explained in the
                         methodology, we are unable to determine total expenditures or total claims for only the
                         dually eligible population. The percentages above represent proportions of total
                         expenditures and claims for Medicare-coverable services for all beneficiaries, not dually
                         eligible beneficiaries only.



   OEI-07-06-00640   D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                      8
F   I N D I N G         S            




                                                Table 3: Inappropriately Paid Medicaid
                                                Nonroutine Medical Supplies

                                                State                                                       Dollars                          Claims

                                                Florida                                                    $16,009                               212

                                                Maryland                                                             $0                            0

                                                North Carolina                                             $15,847                               450

                                                Ohio                                                                 $0                            0

                                                Texas                                                    $770,183                            81,419

                                                   Total                                                 $802,039                            82,081
                                                Source: OIG analysis of State Medicaid claims data, 2007.


                      States inappropriately paid $219,125 for 1,980 claims for therapeutic
                      services
                      Ohio and Texas accounted for 93 percent of the inappropriate
                      expenditures for therapeutic services, with North Carolina paying
                      7 percent of the identified inappropriate payments (see Table 4 below).
                      Sixty-six percent of the identified therapeutic services were for physical
                      therapy; Ohio accounted for 63 percent of the inappropriate
                      expenditures for physical therapy claims. Ohio, Texas, and North
                      Carolina used local codes for billing physical therapy claims. Although
                      these were not the same as the codes included on the listing of Medicare
                      PPS covered services, Medicare covers all therapeutic services provided
                      to a beneficiary during home health episodes irrespective of the code
                      used to bill that service. Thus, the Medicaid payments for these claims
                      are duplicative.


                                                    Table 4: Inappropriately Paid Medicaid
                                                    Therapeutic Service Claims

                                                    State                                             Dollars                                 Claims

                                                    Florida                                                  $0                                    0

                                                    Maryland                                                 $0                                    0

                                                    North Carolina                                   $14,891                                     149

                                                    Ohio                                             $67,694                                     967

                                                    Texas                                          $136,540                                      864

                                                         Total                                     $219,125                                    1,980
                                                    Source: OIG analysis of State Medicaid claims data, 2007.

    OEI-07-06-00640   D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                       9
F   I N D I N G         S            



                                                                    Two States paid $6.6 million
        Medicaid paid $6.6 million for routine supplies             for 74,648 claims for routine
         on the same dates as home health services;                 medical supplies on the
        Medicare coverage of routine supplies cannot                same dates as therapeutic or
                      be determined from claims data                assistive services. Texas
                                                                    represented 85 percent of
                      the total expenditures for home health routine medical supplies, but
                      accounted for 98 percent of the expenditures for these claims (see Table
                      5 below). All of these claims were for various sizes of incontinence briefs
                      and liners, which are typically covered by Medicare as routine medical
                      supplies. Because Medicare PPS covers the cost of routine medical
                      supplies that are customarily used in small quantities during the course
                      of a therapeutic or assistive home health service, it is possible that
                      these medical supplies were included in the Medicare payment and
                      Medicaid should not have paid for them. However, claims data do not
                      specify whether a routine supply was provided during the course of a
                      therapeutic or assistive service or just on the same day as a service.
                      Therefore, without reviewing medical records, neither OIG nor the State
                      Medicaid programs can determine whether these medical supplies were
                      in fact provided during the course of a therapeutic or assistive service.17

                                                Table 5: Paid Medicaid Claims for Routine
                                                Medical Supplies on the Same Dates as Home
                                                Health Services

                                                State                                             Amount Paid                Number of Claims

                                                Florida                                                             $0                                 0

                                                Maryland                                                            $0                                 0

                                                North Carolina                                           $164,231                               1,780

                                                Ohio                                                                $0                                 0

                                                Texas                                                 $6,486,272                               72,868

                                                   Total                                              $6,650,503                               74,648
                                                Source: OIG analysis of State Medicaid claims data, 2007.

                      States paid an additional $8.3 million for 93,082 claims for routine
                      medical supplies that home health providers billed during Medicare
                      episodes of care but that did not fall on the same dates as therapeutic or
                      assistive services. The “Medicare Benefit Policy Manual” states, “There


                          17 Reviewing medical records was outside the scope of this study.




    OEI-07-06-00640   D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                           10
F   I N D I N G         S


                      are occasions when [routine supplies] would be considered nonroutine
                      and thus would be considered a billable supply, i.e., if they are required
                      in quantity, for recurring need, and are included in the plan of care.”18
                      However, the Manual does not define “required in quantity” or
                      “recurring need” with respect to whether routine supplies should be
                      considered nonroutine. Lacking this definition, OIG cannot determine
                      whether any or all of these claims should have been covered by
                      Medicare as nonroutine supplies.



 All States reported having controls to prevent             Prior to our review, all five States
                                                            had established payment system
duplicate payments, but these did not eliminate
                                                            edits to compare claims for home
                    all inappropriate payments
                                                            health services to Medicare
                      eligibility information. However, incomplete eligibility information and
                      payment system edit overrides may still allow inappropriate payments.
                      States reported problems with eligibility information
                      Medicare eligibility information was incomplete on many
                      inappropriately paid claims. As previously stated, more than 99 percent
                      of the inappropriately paid claims for Texas did not have a Medicare
                      eligibility indicator populated—the field was empty. Maryland reported
                      that the Medicare eligibility data may not indicate that a beneficiary
                      became eligible for Medicare until a year after Medicare coverage began.
                      CMS officials confirmed that because of retroactive eligibility
                      determinations, Medicare eligibility data may not be up-to-date.
                      States’ payment systems may allow payment despite Medicare eligibility
                      Even when Medicare eligibility information was complete and correct,
                      payment system edits failed to prevent some duplicate payments from
                      being made. In North Carolina, 98 percent of inappropriately paid
                      claims were for beneficiaries with Medicare eligibility indicators
                      correctly populated. Home health providers in North Carolina can
                      insert condition codes on claims to override the need for a Medicare
                      denial when Medicaid criteria are met (e.g., beneficiary is receiving
                      incontinence supplies but no therapeutic or assistive services).
                      Providers must have documentation supporting the override available




                          18 CMS. “Medicare Benefit Policy Manual,” Pub. 100-02, Chapter 7, section 50.4.1.2(E).
                          See Appendix A for further details on the definitions of nonroutine and routine supplies.



    OEI-07-06-00640   D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                       11
F   I N D I N G         S


                      upon request.19 This may explain how the claims in North Carolina
                      that correctly indicated the beneficiaries’ eligibility for Medicare were
                      paid; however, we did not request data on what claims providers
                      overrode. A similar process exists in Ohio; if Medicare eligibility is
                      indicated for a beneficiary, the provider may submit an appropriate
                      adjustment code for Medicaid to process the claim.


                                                              Officials in the reviewed States
Despite Medicaid being the payor of last resort,
                                                              indicated that they did not have
 State officials reported that they lacked direct             direct access to Medicare PPS
  access to Medicare claims data to determine                 payment data, which would
             whether Medicare had already paid                provide information about
                                                              whether and when a beneficiary
                      was receiving Medicare-paid services. Most inappropriately paid claims
                      were likely paid after Medicare made the initial payments for episodes,
                      and Medicaid paid 10 percent of inappropriate claims after the final
                      Medicare payment. At the time of our review, States lacked direct
                      access to Medicare claims data. If States had direct access, they would
                      be able to determine whether a beneficiary has an open episode of care
                      before processing a Medicaid home health service claim.

                      The order of claims submission dates and dates of payment indicates
                      that some home health providers are submitting Medicaid claims for
                      medical supplies and therapeutic services when they have already
                      received Medicare payments. This may be true for many
                      inappropriately paid Medicaid claims, given that Medicare makes both
                      an initial and a final payment for each 60-day episode of care. Providers
                      submitting Medicaid claims during open episodes of care may have
                      already received the initial Medicare payments for those episodes.

                      Maryland and Florida, which had fewer claims paid in error compared
                      to the other States reviewed, require home health providers to show
                      that Medicare denied the claims for beneficiaries with Medicare
                      eligibility information before Medicaid pays. Ohio does not require a
                      denial of payment notice; however, it does require providers to submit
                      claims for dually eligible beneficiaries to Medicaid with adjustment



                          19 In many cases, overriding the denials may be appropriate because Medicaid often
                          covers services that Medicare does not. However, it is also possible that providers may
                          override denials to collect additional Medicaid payments.



    OEI-07-06-00640   D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                       12
F   I N D I N G         S


                      codes showing why payment is due (e.g., Medicare denied the claim).20
                      The majority of claims that Medicaid paid during and after Medicare
                      episodes of care occurred in Texas, where the Medicaid program does
                      not require a denial of payment notice from Medicare. North Carolina
                      also does not require a denial of payment notice from Medicare.




                          20 In limited circumstances, Ohio allows Medicaid payments for dually eligible
                          beneficiaries without adjustment codes—for instance, if the provider has previously billed
                          Medicare for the service and has documentation showing that Medicare previously denied
                          the payment.



    OEI-07-06-00640   D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                       13
Δ   R E C O M M E N D A T I O N S

                  Our results show that Medicaid inappropriately paid for some supplies
                  and therapeutic services for which Medicare had paid. In 2005, the five
                  States reviewed made $1 million in inappropriate Medicaid payments to
                  home health agencies for therapeutic services and nonroutine medical
                  supplies; two State Medicaid programs paid another $6.6 million for
                  routine medical supplies on the same dates as Medicare-covered home
                  health services, but it is not possible to determine from the claims data
                  alone whether these payments were appropriate. Although all States
                  had controls in place to prevent duplicate payments, these controls did
                  not prevent all inappropriate payments. Further, States reported that
                  they lacked direct access to Medicare claims data to determine whether
                  Medicare had already paid. As a result, despite Medicaid being the
                  payor of last resort, Medicaid likely made most of the inappropriate
                  home health payments after the initial Medicare payments and
                  10 percent of the inappropriate payments after the final Medicare
                  payments.

                  We recommend that CMS:
                  Ensure That Medicaid Does Not Pay Providers for Medicare-Paid Nonroutine
                  Medical Supplies and Therapeutic Services
                  CMS could accomplish this through:

                  •	      working with States and Regional Home Health Intermediaries to
                          determine the costs and benefits of requiring providers to request
                          from Medicare denial of payment notices that would then be
                          submitted to the Medicaid program,

                  •	      investigating and addressing the causes of States’ incomplete
                          Medicare eligibility data,

                  •	      working with States to determine the utility of allowing providers to
                          override Medicaid denials for home health services for dually eligible
                          beneficiaries,

                  •	      requesting States to reeducate providers on the requirement that
                          Medicaid be the payor of last resort and that Medicaid not be billed
                          for services that Medicare covers, and

                  •	      making current Medicare home health payment information
                          available directly to States to allow States to determine whether
                          Medicaid providers are billing for beneficiaries during
                          Medicare-covered home health episodes of care.




OEI-07-06-00640   D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                   14
R   E C O        M M E N D A T                              I O N               S


                        Clarify CMS Policy on Medicare PPS Coverage of Routine Medical Supplies
                        CMS should clarify what constitutes Medicare-covered routine medical
                        supplies used in the course of a therapeutic or assistive service and
                        provide greater specificity on when routine medical supplies are paid for
                        under Medicare PPS. Specifically, definitions of “required in quantity”
                        and “recurring need” with respect to whether routine supplies should be
                        considered nonroutine are needed.

                      We note that this review was conducted as a statistical match of
                      computerized data. Under the provisions of the Computer Matching and
                      Privacy Protection Act of 1988, we cannot forward the results to CMS or the
                      States for collection of the inappropriate payments.


                        AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                        RESPONSE
                        In its written comments on the report, CMS stated that it “did not
                        disagree” with our first recommendation and recognized the importance
                        of preventing duplicate Medicaid and Medicare billings. CMS offered
                        what it believes is a simplification of one of our suggestions to address
                        the first recommendation, which involves Medicare sending a copy of
                        the denial of payment notice to the State Medicaid program. CMS
                        concurred with our second recommendation to clarify the policy on
                        coverage of routine medical supplies under Medicare’s home health
                        PPS.

                        CMS commented on the methodology of this review, stating that the
                        absence of medical record review or further analysis of potential
                        duplicate payments limits the findings. Medical record review and
                        follow-up analysis could provide additional useful information about
                        inappropriate payments. However, our claims analysis was sufficient to
                        definitively identify $1 million in inappropriate Medicaid payments, as
                        well as to identify vulnerabilities that CMS should address to prevent
                        duplicate payments.

                        CMS also stated that our second finding is an assumption rather than
                        fact. Our second finding, which states that Medicaid paid $6.6 million
                        for routine supplies on the same dates as home health services, is
                        factual. We make no assumption about whether these payments were
                        inappropriate. As stated in the finding, “. . . without reviewing medical
                        records, neither OIG nor the State Medicaid programs can determine


    OEI-07-06-00640     D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                         15
R   E C O        M M E N D A T                            I O N               S


                      whether these medical supplies were in fact provided during the course
                      of a therapeutic or assistive service.”

                      CMS stated that the Medicaid and Medicare matches were not exact.
                      The nature of PPS payments, which include all supplies and services
                      that Medicare covers, makes it impossible to find one-to-one matches
                      between Medicaid and Medicare payments. As described in our
                      methodology, it is nonetheless possible to identify duplicate payments
                      using these matches.

                      CMS also stated that we were unable to calculate expenditures for only
                      the dually eligible population. The lack of accurate dual eligibility
                      indicators on claims data makes this calculation impossible.
                      Consequently, our first recommendation suggests that CMS investigate
                      and address the causes of States’ incomplete Medicare eligibility data.

                      Finally, CMS requested further elaboration on Maryland’s success in
                      preventing duplicate payments for home health services. Our
                      discussions with Maryland Medicaid officials did not reveal any
                      significant differences between their efforts to prevent duplicate
                      payments and the efforts of the other four States reviewed. Maryland’s
                      lack of inappropriate payments is due most likely to the significantly
                      smaller number of beneficiaries who were receiving services paid by
                      both Medicaid and Medicare rather than differences in States’
                      prevention efforts.

                      We made technical corrections to the report based on CMS’s comments.
                      The full text of CMS’s comments is provided in Appendix B.




    OEI-07-06-00640   D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                       16
Δ   A P P E N D I X                                  ~           A

                  Medicare Coverage of Nonroutine and Routine Medical Supplies

                  Medicare covers nonroutine medical supplies under the following
                  conditions: (1) the home health agency follows a consistent charging
                  practice for Medicare and other patients receiving the item, (2) the item
                  is directly identifiable to an individual patient, (3) the cost of the item
                  can be identified and accumulated separately from other services, and
                  (4) the item is furnished at the direction of the patient’s physician and is
                  specifically identified in the plan of care. Examples of nonroutine
                  medical supplies include catheter supplies, dressings, syringes, needles,
                  and certain incontinence supplies.21
                  Routine medical supplies are defined as those that are customarily used
                  in small quantities during the course of most home care visits, which
                  are usually included in the staff’s supplies and not designated for a
                  specific patient. Routine medical supplies are included in Medicare
                  Prospective Payment System if they are provided during the course of a
                  therapeutic or assistive service (i.e., a physical therapy or skilled
                  nursing visit). Examples of routine medical supplies include gloves,
                  cotton balls, and certain incontinence supplies. If a supply that is
                  normally considered routine is required in quantity for recurring need
                  and is specified in the plan of care, it may be considered a nonroutine
                  supply. 22




                      21 Centers for Medicare & Medicaid Services (CMS). “Medicare Benefit Policy Manual,” 

                      Pub 100-02, Chapter 7, section 50.4.1.3. 

                      22 CMS. “Medicare Benefit Policy Manual,” Pub 100-02, Chapter 7, section 50.4.1.2. 





OEI-07-06-00640   D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                   17
Δ   A P P E N D I X                                  ~            B




OEI-07-06-00640   D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                   18
A   P   P E N D       I X             B




    OEI-07-06-00640   D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                       19
A   P   P E N D       I X             B




    OEI-07-06-00640   D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                       20
A   P   P E N D       I X             B
Δ       A C K N O W L E D G M E N T S

                      This report was prepared under the direction of Brian T. Pattison,
                      Regional Inspector General for Evaluation and Inspections in the
                      Kansas City regional office.

                      Brian Whitley served as the team leader for this study. Other principal
                      Office of Evaluation and Inspections staff from the Kansas City regional
                      office who contributed to the report include Michael Barrett, Michala
                      Walker, and Julie Dusold; central office staff who contributed include
                      Scott Horning, Kevin Manley, and Jennifer Jones.




    OEI-07-06-00640   D U P L I C AT E M E D I C A I D   AND   M E D I C A R E H O M E H E A L T H P AY M E N T S : S U P P L I E S   AND   SERVICES
                                                                                                                                                       21
